HHS/OIG, Audit - "Review of Medicare Part A Administrative Costs Claimed By Horizon Blue Cross Blue Shield of New Jersey for the Period October 1, 1997 through July 31, 2000," (A-02-01-01009)
Department
of Health and Human Services
"Review of Medicaid Claims for 21 to 64 Year Old Residents of Private
Psychiatric Hospitals in Texas That Are Institutions for Mental Diseases,"
(A-06-02-00026)
January 9, 2003
Complete Text of Report is available in PDF format
(573 kb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine if controls were in place to
effectively preclude the Texas Department of Health (TDH) from claiming federal
financial participation (FFP) under the Medicaid program for all medical services
made on behalf of 21 to 64 year old residents of private psychiatric hospitals
that are institutions for mental diseases (IMD).  We found that for the
period September 1, 1997 through August 31, 2000, TDH improperly claimed FFP
for medical and ancillary services for IMD clients between the ages of 22 to
64, and those aged 21 at admission.  As a result, FFP totaling $555,341
was improperly claimed for IMD residents at the 27 private psychiatric hospitals
included in our audit.  In addition to the implementation of effective
internal controls, we recommended a financial adjustment for $555,341.